<html>
<title> - HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-1189]
[From the U.S. Government Publishing Office]





                                                       S. Hrg. 111-1189

                  HEARING ON THE PRESIDENT'S PROPOSED
                    EPA BUDGET FOR FISCAL YEAR 2010

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 12, 2009

                               __________

  Printed for the use of the Committee on Environment and Public Works

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              __________
                              
                          U.S. GOVERNMENT PUBLISHING OFFICE 

94-583 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          
                          

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 12, 2009
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     2
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Lautenberg, Hon. Frank R., U.S. Senator from the State of New 
  Jersey.........................................................     6
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     9
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     9
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................    10
Udall, Hon. Tom, U.S. Senator from the State of New Mexico.......    11
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma, 
  prepared statement.............................................   100

                                WITNESS

Jackson, Lisa P., Administrator, U.S. Environmental Protection 
  Agency.........................................................    12
    Prepared statement...........................................    14
    Responses to additional questions from:
        Senator Boxer............................................    29
        Senator Carper...........................................    38
        Senator Inhofe...........................................    44
        Senator Vitter...........................................    70

 
  HEARING ON THE PRESIDENT'S PROPOSED EPA BUDGET FOR FISCAL YEAR 2010

                              ----------                              


                         TUESDAY, MAY 12, 2009

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:45 a.m. in room 
406, Dirksen Office Building, Hon. Barbara Boxer (chairman of 
the committee) presiding.
    Present: Senators Klobuchar, Lautenberg, Vitter, Barrasso, 
Sanders, Whitehouse, Udall, and Merkley.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. The Committee will come to order.
    I know Administrator Jackson has a very hectic day, so we 
have accommodated her by starting 15 minutes earlier than 
normal. But we will also try to keep our opening statements to 
4 minutes and I would start by thanking Administrator Jackson 
for appearing before the Committee today to discuss the 
President's budget for the EPA.
    Every year the Committee holds a hearing to examine the 
budget for the EPA and clearly, during the last Administration, 
there was rarely any good news in the budget. For example, the 
Bush 2009 budget represented a 26 percent decline in resources 
over the past 8 years. And I am pleased to see this budget 
represents a fresh new commitment to safeguarding public health 
including the health of our children, curbing the carbon 
pollutions that cause global warming, and creating clean energy 
jobs.
    The investments in this budget signal the high priority 
that the President places on the health of the environment and 
the health of the American people. Our States and our cities 
are faced with unprecedented need to invest in drinking water 
plants and wastewater treatment facilities. These systems help 
ensure our families can safely turn on the tap when they go to 
work in the morning and come home in the evening and they will 
keep our lakes and rivers clean for fishing and swimming. This 
is so important to all of us in our States.
    EPA estimates that our Nation has more than $200 billion in 
investment needs just for wastewater infrastructure. By 2019, 
our drinking water infrastructure needs could top $100 billion. 
And I think it is important to note that when we do clean these 
areas up and bring them up to speed we create many, many good 
paying jobs. So this budget would provide $3.9 billion for 
drinking and wastewater infrastructure, an increase of more 
than $2.3 billion. This is more than a down payment on 
protecting public health. Again, it will put people to work and 
rebuild our crucial infrastructure.
    I look forward to our business meeting later this week 
where we plan to move forward to reauthorize and update the 
Clean Water and Safe Drinking Water Revolving Funds. I am 
pleased we have introduced a bipartisan bill. Yes.
    [Laughter.]
    Senator Boxer. That reflects our agreement on the 
importance of this issue. And if we do pass this, it is the 
Revolving Fund that deals with rebuilding our sewer 
infrastructure. I do not think that has been authorized in 22 
years. Twenty-two years. And we are on the verge of breaking 
that. And then the other, the Drinking Water Revolving Fund, is 
about 13 years. So we are very excited, Administrator Jackson, 
that with you helping us and guiding us and working with us we 
can make some real bipartisan progress.
    There are important elements in this budget: addressing 
global warming, the Energy Star Program, a national inventory 
of large sources of greenhouse gas emissions which Senator 
Klobuchar has worked so hard on, there is analysis of issues 
relating to cap-and-trade for controlling the pollution, there 
is developing vehicle emission reduction technologies to 
address carbon pollution and help us car manufacturers adopt 
such technologies and become more competitive.
    So this is an historic budget. I will say I have concerns. 
I am worried about the Superfund cleanup piece. And I do not 
understand why the projected number of completed Superfund 
cleanups is down despite the overall increase in the budget and 
why diesel emissions reduction efforts, which are so important 
to Senator Carper and so important to protecting children from 
asthma, why that has been cut. I am concerned that the needs of 
State and local air officials do not appear to be adequately 
reflected.
    So here is where I come out and say I am with most of it. I 
am concerned with a few pieces here. And at the end of the day 
the budget begins the hard work of restoring America's 
confidence in the EPA. It would make our families healthier, 
our communities safer.
    And I will put the rest of my statement in the record to 
keep with the 4 minutes and under the rules. Thanks to Senator 
Vitter, I am going to call on Senator Klobuchar, then Senator 
Vitter and then Senator Lautenberg.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chairman, and 
thank you, Senator Vitter, for allowing me to go first. I am 
going to another committee hearing to introduce my former 
professor, Cass Sunnstein, who hopefully will help you get 
through all these regulations so we can get some things done 
here.
    I want to also tell you how much I appreciate the 
leadership you have shown at the EPA and the integrity you are 
working to restore to the office. I am looking forward to going 
through your budget and working with you on this budget.
    I also am pleased that there is money set aside for that 
greenhouse gas registry. I always felt that we are not going to 
start any kind of a greenhouse gas system nationally in terms 
of reducing greenhouse gases if we cannot even count them and 
this is the very important first step that should have been 
done administratively a while back. I always thought it was 
ironic that we had something like 37 States that had started 
their own greenhouse gas registry together because the Federal 
Government had failed to act.
    I also appreciate as Chair of the Subcommittee on 
Children's Health and as a fellow parent of a school age child 
that you have instituted a new plan for screening combinations 
of chemicals, recognizing that people are never exposed to just 
one chemical alone but typically small doses of multiple 
chemicals in combination. I understand that this new method 
will pay particular attention to the way small children are 
affected disproportionately by toxic chemical exposure and may 
help us realize some of the causes of serious medical problems 
that plague people later in life.
    And I just wanted to mention one thing that we had talked 
about earlier this week: the status of biofuels. I believe that 
if we are going to move to the next stage of ethanol and 
biofuels, with cellulosic ethanol, with switch grass and 
prairie grass and corn stover and other things that we have to 
continue to make sure that we do not pull the rag out from 
under our existing bio-fuel business which has had to compete 
tool and nail with these humongous oil companies to just get 
into existence. I know we have talked about that.
    I personally believe that, to fulfill some of the national 
requirements that were included in the Energy Bill, we need to 
move to higher blends of ethanol, E12, E15 and I am hopeful 
that there will be money set aside to get those proceedings 
moving because we have been waiting a long time to do that and 
biofuels clearly should be a part of the work that we do in 
order to get ourselves off of our dependence on foreign oil.
    So, overall, I wanted to thank you for your good work, 
Administrator Jackson, the work of the EPA, the fact that we 
are able to get information and evidence and things that we 
need to make good decisions. As you know, we have a major bill 
ahead of us, a climate change bill, and we look forward to your 
leadership and working with you to make sure that we have a 
strong bill that not only reverses the trend we have seen 
across the world with global warming but also does it in a way 
that will make sure that middle class people, people who have 
been harmed in this economy, are not hurt by our action. What 
we want to do is have them helped by this action and I believe 
there is a way that we can do it.
    Thank you very much.
    Senator Boxer. Thank you, Senator, very much. Before you 
leave, I want to talk to you about one quick thing. On the way 
out.
    Senator Vitter.

            OPENING STATEMENT OF HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you very much, Madam Chairman, for 
the opportunity to discuss this proposed budget and delve into 
some of the major items facing the Agency and the Country and 
thank you, Administrator Jackson, for your time here and your 
leadership.
    As we discuss the President's budget, I think it is 
important to note some broad, conflicting signals given by the 
Administration through the budget. On the one hand, the 
President touts fiscal responsibility. On the other hand, he 
proposes major spending increases which result in record 
deficits and national debt.
    Early on, the Administration asked us to support an $800 
billion borrowing plan essentially on our kids' credit card to 
stimulate the economy. And we were told that that $800 billion 
in added debt would create 3.5 million jobs. I hope that gamble 
pays off. I hope it supports and creates those jobs. However, 
going beyond that, as we move from a one time stimulus to a 5- 
and 10-year budget plan, my concern grows when we see that 
level of spending increase continue and reflected in the 
budget, including an EPA budget that grows 37 percent in 1 
year.
    Now, the EPA has a very important responsibility in 
protecting our environment. It also has a responsibility not to 
regulate our economy into a full blown depression and that is 
my other very serious concern. The most notable decision in 
this new EPA in that regard is the greenhouse gas endangerment 
finding. It is no secret that that decision to attribute 
climate change to six greenhouse gases is intended to pressure 
Congress into passing comprehensive cap-and-trade legislation. 
Hopefully, EPA recognizes the precarious situation this 
decision places the Agency and the Administration in. There 
exists no legitimate economic argument that regulating 
CO<INF>2</INF> would not significantly increase the cost of 
energy.
    In addition, there is no economic analysis to support the 
idea that increasing the cost of energy would not be a major 
negative impact on low-income families or force some jobs and 
businesses overseas. And that is the great, great risk with the 
endangerment finding. Essentially, it really seems that you are 
telling Congress that, unless we pass legislation that will 
increase the cost of energy, including on low-income families 
and businesses and schools, then you will be forced, as an 
agency, to regulate CO<INF>2</INF> and unilaterally increase 
the cost of energy on those same low-income families and 
businesses and schools.
    Now, despite the 37 percent increase in funding at a time 
of record deficits, I do think there is some important and good 
expenditures within this budget and I want to highlight that. 
Those include funding for the clean water and drinking water 
infrastructure program which is needed in many areas, certainly 
including rural Louisiana. However, we may also be on the verge 
of having new environmental regulations that could single-
handedly cripple the economy, also limit property rights and 
our Country's ability to generate wealth including in those 
areas.
    I will submit the remainder of my comments for the record 
but again, I want to underscore two key things. One is on the 
fiscal side, a grave concern about this enormous increase in 
spending and with it, deficit and debt, not just again in a 
one-time stimulus but in a game plan for Federal spending for 
the next 5 and 10 years. And second, specific policy, including 
on the greenhouse gas side, that will clearly spell enormous 
increase in energy costs and negative impact on jobs.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Vitter follows:]

             Statement of Hon. David Vitter, U.S. Senator 
                      from the State of Louisiana

    Madam Chairman, thank you for the opportunity to discuss 
the EPA's proposed budget and to delve into some of the major 
items facing the agency. Administrator Jackson, your time here 
today is appreciated.
    As we discuss the President's budget it is important to 
note the conflicting signals being given by the Administration. 
On the one hand, the President touts fiscal responsibility and 
economic growth. On the other, he proposes major spending 
increases and record deficits and national debt.
    The Administration asked us earlier this year to support 
borrowing $800 billion on our children's credit card to 
``stimulate'' the economy. In fact, we were told that the $800 
billion in added debt would create 3.5 million jobs. I am 
hopeful that the gamble against our children's future will 
indeed create 3.5 million jobs. However, I am not sure, given 
the stimulus spending, that an additional increase in the EPA's 
budget by 37 percent is warranted. How can we justify this 
spending increase?
    EPA has a very important responsibility in protecting our 
environment. EPA also has the responsibility not to regulate 
our economy into a full blown depression. It is possible to 
abuse environmental laws and issue regulations in a manner that 
puts families out of work and makes doing business in the 
United States wholly uncompetitive.
    The most notable decision to be issued in these early days 
from your office is the greenhouse gas Endangerment Finding. It 
is no secret that the decision by EPA to attribute climate 
change to six greenhouse gases is intended to pressure Congress 
into passing comprehensive Cap-and-Trade legislation. Hopefully 
EPA recognizes the precarious situation such a decision places 
the Agency and Administration in.
    There exists no legitimate economic argument that 
regulating CO<INF>2</INF> would not increase the cost of 
energy. As well, there is little economic analysis to support 
the idea that increasing the cost of energy would not impact 
low-income families or force some businesses overseas, thus the 
risk associated with the Endangerment Finding. Essentially, it 
seems you are telling Congress that unless we pass legislation 
that will increase the cost of energy on low-income families, 
businesses, schools, fire departments, etc., then you will be 
forced as an agency to regulate CO<INF>2</INF> and unilaterally 
increase the cost of energy on low-income families, businesses, 
schools, fire departments, etc.
    Despite the 37 percent increase in funding, at a time of 
record deficits, I do believe there are good expenditures 
within the budget. Those include increased funding for Clean 
Water and Drinking Water Infrastructure, which is much needed 
in areas such as rural Louisiana. However, we may also be on 
the verge of having new environmental regulations that could 
single-handedly cripple the economy while limiting property 
rights and the country's ability to generate wealth. Two of 
those proposals include Cap and Trade legislation and the Clean 
Water Restoration Act. In other words, we have borrowed beyond 
all imagination, at the rate of nearly 50 cents on every dollar 
spent, are still planning on increasing spending without 
economic analysis to show that such spending is sustainable, 
and then want to hamstring our economy with regulations that 
would be stifling at the best of economic times.
    If you need evidence of what over regulation and poor 
economic analysis can do to an economy, look no further than 
the California Air Resources Board (CARB). The California Air 
Resources Board intentionally skewed its analysis of the 
economic effects of its proposed climate action plan, according 
to a review by State-commissioned economists and by the non-
partisan Legislative Analyst Office. The Air Resources Board 
released the analysis in September, 3 months after it released 
its draft plan for implementing the Global Warming Solutions 
Act. CARB projected that their policies would increase gross 
State product based on the notion that forcing higher energy 
into the market place would grow an economy. To come to that 
conclusion requires a blatant disregard for common sense and 
complete economic illiteracy.
    All six economists selected by the Board to peer review the 
analysis found CARB's economic analysis deeply flawed. In the 
words of Harvard Economics Professor Robert N. Stavins, Albert 
Pratt Professor of Business and Government: ``I have come to 
the inescapable conclusion that the economic analysis is 
terribly deficient in critical ways and should not be used by 
the State government or the public for the purpose of assessing 
the likely costs of CARB's plans.''
    Given the President's and your own promises to ensure that 
EPA decisions are supported by sound science, I am hopeful that 
similar credence will be given to economic analysis supporting 
EPA regulation. The economy is flailing and families are having 
a tough time paying their bills, so the last thing we need is 
to chase jobs out of the country with crippling regulation 
based on flawed economic analysis.
    I am hopeful that somewhere in the 37 percent increase in 
spending there will be moneys directed toward experts that may 
provide cost-benefit analysis to EPA regulation. It is 
imperative that the economic impact on working Americans be 
scrutinized just as judiciously as the impact on the 
environment. We are still a Nation of the people, by the 
people, and for the people.

    Senator Boxer. Thanks. I want to use the 40 seconds that 
Senator Vitter went over to give myself time to rebut a couple 
of things he said.
    You know, if you are in danger, you are in danger. The Bush 
administration, we got all their information. They made a very 
similar endangerment finding. It was only because it was 
stopped in cyberspace that the rest of us did not know about it 
until we sought the documents.
    You know, it is like saying if you go to the doctor and the 
doctor finds you have cancer but he does not want to tell you, 
he is not going to tell you because you are transitioning to a 
different job. That is ridiculous. Either a pollutant is a 
danger to the planet and to the health of our families, or it 
is not. It is not about whether there is a recession or a boom 
in the economy. It is what it is, as my kids always tell me.
    Now, the fact is that when we do this right, we are going 
to create clean energy jobs that will never go away. We will 
get off of foreign oil and we will have enough money for 
consumer rebates to keep people whole. That is the truth. All 
of this fear-mongering is off base because it is the opposite. 
We are going to create these clean jobs that cannot be taken 
away from us. We are going to revive our economy and we are 
going to have enough funds coming in the door from the 
polluters to make people whole during that transition.
    So this debate started this morning. I did not bring it up, 
but it was brought up. So I feel, as Chairman of this 
Committee, that we will be reporting out a strong bill. I felt 
I should respond.
    Senator Lautenberg.
    Senator Vitter. Madam Chair.
    Senator Boxer. Yes?
    Senator Vitter. [Remarks off microphone.]
    Senator Boxer. Well, you spoke 40 seconds overtime and I 
matched you.
    Senator Lautenberg. Let me pile on first please.
    Senator Boxer. Yes. After Senator Lautenberg, you can have 
time. And then, of course, I will have time and then, of 
course, we will turn to Administrator Jackson.

        OPENING STATEMENT OF HON. FRANK R. LAUTENBERG, 
           U.S. SENATOR FROM THE STATE OF NEW JERSEY

    Senator Lautenberg. Madam Chairman, thanks for your 
renewable source of energy and continuing the fight against the 
foul environment that we have seen. Sometimes these egregious 
claims that are made just challenge logic and thought.
    We have been lucky that in a little more than 100 days, 
Lisa Jackson, with President Obama being a great cheerleader 
and supporter, since Ms. Jackson has been at the helm EPA has 
made some monumental decisions. It formally declared that 
carbon dioxide is a pollutant and a threat to the public's 
health and welfare. It is considering granting the California 
waiver to allow states like New Jersey and California to 
regulate greenhouse emissions from vehicles. And just last 
week, EPA announced it would revisit two rules from the Bush 
administration that deregulated more than a million tons of 
hazardous waste.
    We are seeing a new era of leadership at EPA. And we are 
grateful. One special advantage that Ms. Jackson has, she 
served as a DEP Commissioner in New Jersey and that, of course, 
gave her the base of knowledge that helps her handle all of 
these things so perfectly. And we are grateful. We see new 
leadership, a new commitment to the Agency's mission. The 
budget request shows that commitment by funding the EPA at the 
highest level in its 39-year history. It gives the Agency the 
resources it needs to clean up our communities and keep our 
children healthy.
    Now, the Fund programs also are job creating impetuses. 
They are going to help turn our environment into a much cleaner 
environment and a cleaner energy economy as well. It helps 
erase the neglect we saw under the previous Administration.
    First, the budget adds to the funding provided in the 
Economic Recovery Act for the Nation's Superfund Program. That 
program is important to me both because it falls under the 
subcommittee that I now chair and, more importantly, because it 
has such an impact on my State, our State of New Jersey.
    Now, New Jersey has more Superfund sites than any State in 
the Country and those sites are decaying, allowing toxins to 
seep into the neighborhoods where our children live, learn and 
play. By funding this Superfund Program, cleaning up these 
sites will create jobs and revitalize local communities that 
have been crippled by the toxic legacy of irresponsible 
companies.
    And I want to respond to our colleague's comments. He has 
every right to view things from his perspective, as he does. 
But I would say this. When we talk about budget for EPA, we 
must look behind the numbers, behind the arithmetic, and see 
what it means. As a grandfather of a child with asthma, I must 
tell you it worries me enough to say that if I could only pay 
more and get that air cleaner so I do not have to hear that he 
was wheezing when he played baseball and had to be carried off 
the field, I would. So let us look at this from a practical 
standpoint.
    When the State of Louisiana was crushed by that terrible 
hurricane, they asked for more money. They asked for lots of 
money and got lots of money to try to help them out of this 
abyss that they were in. And that is what we are talking about 
here. And instead of sitting here as the auditors, we ought to 
sit here as the doctors and do what we can to protect the 
health of these families. And again, by funding these programs, 
cleaning up these sites will revitalize local communities that 
have been crippled by the toxic legacy of irresponsible 
companies.
    The budget also proposes that we restore the Superfund 
polluter pays principle to make sure that polluters, not 
taxpayers, are footing the bill for these cleanups. Later this 
year, I am going to introduce legislation to accomplish this 
goal. And I look forward to working with the Administration to 
make sure that bill becomes law.
    According to EPA, we will be able to raise $1 billion each 
year starting in 2011 and as much as $2 billion annually by 
2019. The budget request makes a crucial and necessary 
investment in our water infrastructure and this budget proposes 
$3.9 billion to provide loans to States to build and repair our 
crumbling water system. It creates thousands of technical and 
construction jobs, making our economy and communities 
healthier.
    Madam Chairman, forgive the overrun here. This budget 
provides the resources to protect our environment and grow our 
economy at the same time. And I applaud the Administration and 
Administrator Jackson's efforts and I look forward to hearing 
more about EPA's progress. Damn the torpedoes, plow on ahead.
    [Laughter.]
    Senator Boxer. Thank you, Dr. Lautenberg. You are not an 
auditor, you are a doctor. I love that analogy. I think it is 
right on target.
    So we are going to go a little bit different here. We are 
going to give Senator Vitter a chance. One minute. Then we are 
going to go to Senator Sanders and then Senator Barrasso.
    Senator Vitter. Thanks, Madam Chair.
    Just quickly, I just wanted to add that you and I are 
obviously going to disagree about the fundamentals of climate 
change and that is fine. But I hope that as we go through the 
debate we can have a full, honest debate and I just do not 
think it is part of that full, honest debate to suggest that 
these very dramatic measures we are talking about are going to 
grow the economy, create more jobs, have an overall positive 
economic impact and not have an enormous economic cost.
    It really reminds me of something going on in your State, 
which is the actions of the California Air Resources Board. 
They intentionally skewed their analysis of economic effects of 
their proposed climate action plan and made these same 
arguments that it would actually increase the gross State 
product based on these new green jobs. The problem is, they had 
six economists peer review that analysis and all six of those 
economists--it was not some conservative think tank--all six of 
those economists chosen to peer review that analysis said it 
was deeply, deeply flawed. In the words of Harvard Economics 
Professor Robert Stavins, who is an Albert Pratt Professor of 
Business and Government, we have come to the inescapable 
conclusion that the economic analysis is terribly deficient in 
critical ways and cannot be used by the State government.
    So, I just think we need to have----
    Senator Boxer. Well, trust me, you are going to have as 
much time as you want. And I am going to have as much time as I 
want to debate that.
    Senator Vitter. Great.
    Senator Boxer. And I would tell you that you do not know my 
State. If my State had not passed this cutting edge global 
warming bill, we would be in far worse shape. We have seen the 
development of 400, that is 400, new solar energy companies. 
People are installing weatherization, solar rooftops.
    The party of no. That is what we are facing here folks, the 
party of no versus the party of the future.
    Please, Senator Sanders.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you, Madam Chair.
    First of all, welcome, Ms. Jackson.
    We lived through 8 years of an Administration that in many 
ways did not even believe in science let alone the reality of 
global warming, let alone the need to protect our air, our 
water, our food and I am delighted that we now have an 
Administration that understands that you do not have a choice. 
As Senator Lautenberg mentioned a moment ago, we do not have 
options about whether we keep our children healthy, about 
whether or not the air we breathe is clean, whether the food we 
eat is safe. That is not an option. That is a sacred obligation 
that the Government has in terms of protecting its people.
    I think what this budget reflects is an understanding that 
we have neglected the EPA for many years, that we want the EPA 
there to vigorously protect our environment, the health and 
well-being of our people, that we must address the crisis of 
global warming and that, as the Chairwoman just indicated, the 
reality is, and the President has made this clear and I agree 
with him, that one of the key issues of our generation, it may 
be the defining issue of our generation, is whether or not we 
finally break our dependence on fossil fuel, move to energy 
efficiency, move to sustainable energy and in the process over 
a period of years create millions of good-paying jobs.
    I know some of my friends on the other side do not believe 
it. They are wrong. The reality is that we have the potential 
to transform our economy and our energy system and the EPA is 
going to play an important role in that. So, I applaud the 
President for understanding that reality, for beginning the 
process of putting the necessary funds into that struggle and 
we certainly are confident that Administrator Jackson is going 
to be a great leader in that effort.
    Thank you.
    Senator Boxer. Senator Sanders, thank you.
    Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Well, thank you very much, Madam 
Chairman.
    Madam Chairman, I come from a State that is blessed with 
many natural resources and our State is a leader in energy 
production. Wyoming has what the Country needs. We have it all. 
We have wind, natural gas, coal, oil, uranium. We have it all. 
And it is imperative that the Administration propose a budget 
that ensures we use all sources of American energy. This is not 
just for the benefit of Wyoming; it is for the benefit of the 
entire Nation.
    America needs an all of the above energy strategy. No 
resources should be excluded for politically correct reasons. I 
sincerely believe that we should make America's energy as clean 
as we can, as fast as we can, without raising prices for 
American families. This budget works against that goal.
    I am concerned that the bloated budget that we have before 
us today will feed a growing regulatory monster. It is the most 
expensive budget in the EPA's 39 year history. Its size and 
scope signals the coming storm of regulations that will cripple 
energy production in America. The vast array of new rules, 
mandates and regulations that the Administration plans to 
impose are staggering.
    The new influx of taxpayer money will likely go to EPA to 
ramp up permit processing for all the predicted 1.2 million new 
entities that will be captured under the new Clean Air Act 
rules. These are the rules that will be forthcoming under the 
EPA's endangerment finding. Among these entities are schools, 
farms, hospitals, nursing homes, small businesses and other 
commercial entities. The permits take an average 866 hours of 
work to process at a cost of $125,000 to the permittee.
    If passed, more taxpayer money will also go to implement 
the Clean Water Restoration Act. The Act would capture all wet 
areas of a State under EPA's control. More Government workers 
will also need to be hired at EPA to process all the Clean 
Water Restoration Act permits required of farmers, ranchers, 
and small and large towns across America.
    Attorneys from across America will be hired by the EPA to 
enforce new regulations on energy producers, farmers, small 
businesses, and ordinary communities. With attorneys comes 
support staff: secretaries, clerks, tech people, and 
administrative assistants. The green job bonanza for the EPA 
will not be all across America. It will be right here in 
Washington, DC.
    Washington is quick to pass new environmental Federal 
mandates on our States. It is less likely to provide funding to 
those States. Wyoming, like our other States, needs assistance 
to implement many of our environmental laws. New permitting 
requirements under the Clean Air Act could overwhelm the 
States. Ranchers, farmers, small business owners will bear the 
brunt of these new permits. If the Agencies are going to 
mandate new requirements, then Washington needs to pay for 
them.
    The bottom line is this budget is not an investment in 
America's future. It is an investment in Washington's future. 
Given the economic times we live in, Americans deserve better.
    I look forward to the testimony of the Administrator.
    Senator Boxer. Thank you very much. And we turn to Senator 
Whitehouse.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Madam Chair.
    Welcome, Administrator. The debate, just in the opening 
statements, is already lively.
    It is interesting you are appearing before a Committee of 
the U.S. Senate which I think, at this point, is one of the 
very last places in America where the voices of the polluters 
and the polluting industries still prevail on the question of 
climate change. You can even go to the board rooms of our major 
electric utilities and they seem to have gotten it. Certainly, 
there is an enormous amount of American industry that has 
gotten it. The insurance industry has gotten it, at least the 
property/casualty side. You can go to churches and hunting 
groups and fishing groups and people who live with it, and they 
get it. But somehow, in this U.S. Senate, the polluting 
industries and their political heft, still promises to carry 
the day in opposition to climate change.
    So, my urge to you is that, well within the law and well 
within the support of the administrative record that has been 
developed on climate change, on carbon regulation and on auto 
tailpipe emissions, you administrate and you make decisions and 
your Agency makes decisions that are as strong as they can be. 
And that, I believe, is the one thing that can change the 
present dynamic so that people come to the Senate and say, OK, 
we are here to actually solve this problem. Otherwise, this is 
an industry that will duck this problem endlessly and, if they 
get to a situation in which they think they can get a good deal 
out of EPA and they do not have to come to the Senate and they 
can use their influence here to keep us from being effective on 
climate change, I think you have a worst case scenario.
    We need strong, lawful, fact-based regulation out of EPA 
which is not only your proper legal duty but also, I think, 
will have enormous beneficial effects in terms of the 
atmosphere that surrounds climate change legislation here in 
the Senate. I honestly believe at this point without that we do 
not have a chance of passing a significant climate change bill 
here. There is simply too much influence by the polluters who 
do not want to pay for the pollution that they cause. Simple 
prospect: polluter pays. But the polluters obviously do not 
like that prospect and so here we are stuck.
    So, I encourage you, with the budget that you have before 
you, to be diligent, to be strong and to go exactly where the 
facts and the evidence lead you.
    Thank you very much.
    Senator Boxer. Thank you so much.
    Senator Udall.

             OPENING STATEMENT OF HON. TOM UDALL, 
           U.S. SENATOR FROM THE STATE OF NEW MEXICO

    Senator Udall. Thank you very much, Madam Chair.
    I would just prefer to put my testimony in the record and 
proceed with the Administrator and ask questions as we go 
along.
    Thank you.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. Thank you very much, Senator. You are so 
unlike the rest of us who have really gotten into the debate 
already. Can you imagine when we start making up that bill? 
That is going to be hot. It is going to make global warming 
look cool.
    [Laughter.]
    Senator Boxer. All right, we are ready to go. Administrator 
Jackson, you have the floor. Do you want 7 minutes to open or 
something like that?
    Ms. Jackson. I do not think I will need the whole 7 
minutes.
    Senator Boxer. Well, we will give you 7 and you take what 
you need.

STATEMENT OF LISA P. JACKSON, ADMINISTRATOR, U.S. ENVIRONMENTAL 
                       PROTECTION AGENCY

    Ms. Jackson. Thank you so much, Madam Chairman. Thank you 
for your leadership. Thank you to the members of the Committee 
for inviting me to appear before you today to discuss the 
proposed fiscal year 2010 budget request for the Environmental 
Protection Agency.
    We believe this budget is carefully designed to address our 
environmental challenges and contribute to the Country's 
economic recovery. I am happy to have the chance to share my 
thoughts with you today.
    The President requests $10.5 billion for fiscal year 2010 
to carry out EPA's mission to protect human health and the 
environment. That request reflects both the challenges and 
promise we face in an era of high energy costs, global climate 
change and economic crisis.
    For far too long the American people have been offered a 
false choice: economic prosperity or environmental protection. 
We believe we can do better. In fact, we believe that clean 
energy, clean air and water and a healthy environment have 
powerful economic potential. You will see that in this budget. 
Economic recovery and environmental protections go hand in hand 
here.
    The President's budget starts the work needed to transform 
our economy. It includes investments in cutting edge green 
technologies, repairs to crumbling infrastructure and stronger 
regulatory and scientific capabilities to make the Nation's 
water, air and land cleaner for our communities, families and 
children. These investments put Americans back to work while at 
the same time helping our communities, our children and our 
health.
    It also provides a substantial increase in support to 
address public health and environmental challenges that can no 
longer be postponed. Water infrastructure, fresh water 
resources, climate change, critical research and chemical 
management all require urgent action. In short, the budget 
reflects President Obama's commitment to usher in a new era of 
environmental stewardship and put us on a clear path to a 
cleaner and safer planet.
    The most significant investment in the Fiscal Year 2010 
budget is $3.9 billion for Clean Water and Drinking Water State 
Revolving Funds. Those funds support water infrastructure 
projects for States, tribes and territories. These investments 
will prepare us to match the success we had in the 1970s and 
1980s when EPA construction grants helped build much of the 
infrastructure that dramatically increased our Nation's water 
quality and its safety.
    We estimate that this 157 percent funding increase in the 
State Revolving Funds will finance 1,000 clean water and 700 
drinking water projects across America; projects that will 
upgrade the Nation's aging water infrastructure, assure safe 
drinking water and create well paying American jobs.
    EPA's fiscal year 2010 budget also supports efforts to 
develop a comprehensive energy and climate change policy with 
measures to increase energy independence, move into a low 
carbon economy and reduce greenhouse gas emissions. This comes 
in the form of a $19 million increase to help EPA, among other 
things, implement the greenhouse gas inventory so we can take 
the very important step of measuring our progress in reducing 
emissions. That will also ensure that we are targeting major 
sources of emissions without overburdening small business and 
others.
    Just as we need to address climate change, we also need to 
manage the risks associated with the chemicals that we use. The 
fiscal year 2010 budget requests $55 million, an increase of $8 
million over fiscal year 2009 levels, to fund an enhanced toxic 
program to screen, assess and reduce chemical risk. This 17 
percent increase will help EPA complete screening level hazard 
and mischaracterization and initiate action as needed on more 
than 6,750 organic U.S. chemicals.
    The President's budget also contains an increase of $24 
million for the Superfund program. That investment will enhance 
enforcement and removal work and support the broader Superfund 
program. The budget also includes a proposal to reinstate the 
Superfund Fee that expired in 1995. Beginning in fiscal year 
2011, the so-called polluter pays measure would generate $1 
billion a year, rising to $2 billion a year by 2019. Those are 
extremely important resources needed to fund cleanups of 
contaminated sites across America.
    Along with increases in Superfund, the budget provides a 
total of $177 million for the Brownfields program, a $5 million 
increase from 2009. The Brownfields program is designed to help 
States, tribes, local communities and other stake holders in 
economic redevelopment to work together to assess, safely 
cleanup and reuse brown fields. Revitalizing these once 
productive properties helps communities by removing blight, 
satisfying the growing demand for land, helping limit urban 
sprawl, enabling economic development and developing quality of 
life. These protection efforts focus on ensuring that 
contaminated sites are ready to be returned to beneficial use 
by our communities, putting both people and property to work.
    Madam Chairman and members of the Committee, the fiscal 
year 2010 budget request sets EPA on a clear path to addressing 
the pressing environmental challenges that face our Nation. It 
enables us to accomplish important work that American support 
and has clear benefits to the economic, environmental and human 
health of our communities.
    Thank you again for your time and I am happy to answer any 
questions this Committee might have.
    [The prepared statement of Ms. Jackson follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Senator Boxer. Thank you. We will each take 4 minutes.
    Administrator Jackson, the Energy Star Program has been 
extremely successful in increasing energy efficiencies in 
appliances. EPA estimates that the program helped people save 
more than $19 million in utility bills and to prevent the 
equivalent of more than 43 million metric tons of greenhouse 
gases in 2008. This is a win/win. Your budget asked for a $1 
million increase in the Energy Star Program. Can you describe 
how you think the program is functioning and whether it can be 
made even more effective?
    Ms. Jackson. I could not agree more, Madam Chair, that the 
Energy Star Program is a success. It is a win/win. It has been 
a voluntary program and about giving the Americans the 
information they need to make educated choices. Probably the 
flagship is in the appliances that we buy. You can go to a 
store, look at an appliance and make a determination. If you 
see the Energy Star Seal, you know you are getting an appliance 
with energy efficiency.
    The additional money will help us to continue that program, 
to continue to update it to make sure that we stay on the front 
edge of technology which is evolving so that Americans can 
continue to have trust in the Energy Star label. Additionally, 
it would allow us to move into home improvement and energy 
efficiency on the building side because, as we see massive 
amounts of money being poured into energy efficiency on the 
building side, we want to give Americans information there as 
well.
    Senator Boxer. Good. Good. Well, I am very supportive of 
you.
    Now, I want to ask a question about the Superfund sites and 
I know Senator Lautenberg shares this concern. We were 
discussing it yesterday. I do not have to tell you that they 
are the most contaminated toxic waste sites in the Country with 
arsenic, benzene and lead, which is known to cause cancer and 
damage human development. So I am perplexed that EPA has 
revised its expected number of cleanups from 35 under George 
Bush's estimates to 20. And the Agency only anticipates 
cleaning up 22 sites next year. This is down significantly from 
the average annual pace of cleanups during the Clinton 
administration. They were way up then. I think there were 80 
sites per year. So, obviously, I am not happy about this and I 
know others are not.
    So, I am going to ask you two questions. One, what accounts 
for the decline in cleanups? And also, I am concerned about the 
diesel emissions reduction work. You are cutting a lot of the 
funds there. Last year, we had $15 million for diesel emissions 
reduction work in San Joaquin and South Coast Air Quality 
Management Districts in the State of California. Again, diesel 
emissions cause, or contribute to, heart disease and premature 
deaths. So, I am going to work to reinstate the funding.
    But I am perplexed. Could you explain to me the 
Administration's reason for cutting those funds and for cutting 
the number of Superfund cleanups? Those are the two areas that 
concern me.
    Ms. Jackson. Thank you, Madam Chair.
    I will do the Superfund first. I share your concern and I 
respect it. Obviously, more money, one would hope, would result 
in, at the end of the pipelines, the cleanups, which everyone 
looks forward to speeding up. I think there are numerous 
factors and I think it bears further investigation.
    So, I will give you an answer for now, if you will, because 
I know that you and Senator Lautenberg will demand it, as well 
you should, which is that we have certainly done a lot of the 
easier sites. So there is some argument to be made that some of 
the low-hanging, easier to clean up sites have passed through 
the system.
    You might also be aware that the front end of the pipeline, 
the listing and assessment of sites on the Superfund list has 
drastically been curtailed in recent years. As a result, you do 
not see the number of sites and variety of sites coming out. 
So, easy sites are not going on the list. We are not seeing 
cleanups. We will certainly spend all the money allotted to us 
and we will spend it early.
    So my concern is not that we are somehow being slackers 
with respect to getting that money out on the street, creating 
jobs and doing cleanups. What that argues is that the sites are 
more complex and they take longer to clean up. We probably need 
to look at the Superfund pipeline and I probably need to get 
back to you and agree to work with you and this Committee and 
certainly Senator Lautenberg on that particular issue.
    I do applaud my staff for being honest and giving us a real 
number so that we can ask hard questions.
    On the DERA funding, the overall amount for the Country is 
$60 million. I know you know that, Madam Chair. The specific 
earmarks that have been made for California diesel emission 
reduction grants are not there. Obviously, the President's 
budget does not continue this earmark as well as any others and 
so, while it is almost certainly, like other diesel emission 
grants, a very noble program and in keeping with the 
President's commitment to cut earmarks that is what----
    Senator Boxer. Well, let me just follow up and say this. I 
could not disagree more with the President on calling it an 
earmark to put money into the places that have the worst air 
quality in the Nation. I mean, that is ridiculous. You know, I 
think it is good government to go put the money where it is. 
So, I am hopeful that we can get some language in here that we 
can agree on short of an earmark that says we intend for the 
money to go to the places where people are suffering the most. 
So, we will work together on this.
    So, I will just conclude by saying you know, you are, if I 
might just say, a breath of fresh air and your honest answers 
are really appreciated. We are going to have our disagreements. 
We know that. I am going to fight hard for more Superfund 
funding. Because that is the same answer the Bush 
administration gave us and I do not buy it because, frankly, 
they put a lot of money in to spend, to go cleanup sites, and 
nobody said oh, well, it is a waste of money there. So, I just 
do not understand it. I just do not get it.
    But we will work with you very openly. We will work with 
your staff. We will work with Senator Lautenberg. Hopefully, we 
can push hard to get more attention paid to these Superfund 
sites. These sites are hanging out there, they are a drag on 
the economy, and they are a danger to our kids.
    On the diesel, again, maybe there is some way we can, 
without using the exact place that these funds should go, I 
just want to be sure, as the Chairman here, that if the worst 
sites for these diesel emission problems is New Jersey, I do 
not care where it is, I want it to go to those sites. We will 
work together.
    All right. Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    I appreciated Senator Whitehouse's comments that we need 
lawful, fact-based regulation. I appreciate Ms. Jackson's 
comments that she wanted to make sure that we did this without 
overburdening small businesses and others.
    That brings me to my concern and the question, Ms. Jackson, 
about the EPA's recent proposal finding greenhouse gases, as 
you said, are a danger to the public health and welfare. It 
really appears to me that that decision was based more on 
political calculation than on scientific ones.
    In a memo that I received this morning, and it is marked 
Deliberative Attorney-Client Privilege, nine pages, you are 
mentioned on every page of this memo. It is a White House memo. 
Counsel in this Administration repeatedly, repeatedly, 
questions the lack of scientific support that you have for this 
proposed finding. It is here. Nine pages. This is a smoking 
gun, saying that your findings were political, not scientific. 
Here, page two: ``There is concern that the EPA is making a 
finding based on harm from substances that have no demonstrated 
direct health effects such as respiratory or toxic effects.''
    You then talk about regulating greenhouse gases and the 
economy. Dow Jones Newswire this morning said U.S. regulation 
of greenhouse gases such as carbon dioxide ``is likely to have 
serious economic consequences for businesses small and large 
across the economy.'' That is what a White House memo warned 
the Environmental Protection Agency earlier this year. Here it 
is: ``Making the decision to regulate carbon dioxide under the 
Clean Air Act for the first time is likely to have serious 
economic consequences for regulated entities throughout the 
U.S. economy, including small businesses and small 
communities.''
    How do you square that when you say I do not want any 
overriding effect on the economy of small businesses, when this 
internal document, marked Deliberative Attorney-Client 
Privilege, says everything you are proposing is going to have 
serious economic consequences for our businesses in this 
Nation?
    Charlie Munger, who is Warren Buffett's partner at 
Berkshire Hathaway, was recently on CNBC. He said an artificial 
market in government-mandated carbon credits would be 
``monstrously stupid to do right now.'' He added that the move 
is almost demented considering other nations' intention to 
continue industrial development, emitting vast amounts of 
greenhouse gases.
    I could go on, but I am fascinated to see what you have 
been saying and yet to see what the White House has been 
writing where you are on every page. Would you like to comment?
    Ms. Jackson. Certainly I would like to comment, Senator. I 
do not have that document in front of me so I will comment 
generally on many of the issues you bring up.
    Senator Whitehouse. Madam Chair, may I just inquire if the 
Senator intends to make that document a matter of record and if 
so, I ask unanimous consent----
    Senator Barrasso. Madam Chairman, I would be happy to do 
that.
    Senator Whitehouse. That way, we would know what we are 
talking about. I appreciate it. Thank you, Senator.
    Senator Boxer. Without objection that will be in the 
record.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Ms. Jackson. I will answer briefly, Senator, because I 
suspect we will have this discussion many times.
    I disagree with several of the characterizations. The first 
is that the endangerment finding is a scientific finding, 
mandated by law. Mandated by the Supreme Court. The Supreme 
Court ruled 2 years ago that EPA owed the American people a 
determination as to whether greenhouse gases, either in whole 
or individually, endanger public health and welfare. That 
analysis had been done really before I took the oath of office.
    We did review it, as I promised to do at my confirmation 
hearing. We reviewed the science of it; we went through 
interagency review through the White House. Again, I am not 
sure what that document may say. It is deliberative so 
obviously it is people's opinions. It does not mean regulation.
    I have said, over and over, as has the President, that we 
do understand that there are costs to the economy of addressing 
global warming emissions and that the best way to address them 
is through a gradual move to a market-based program like cap-
and-trade. There is a difference between a cap-and-trade 
program which can be authorized by legislation and is being 
discussed, and a regulatory program.
    With respect to EPA's regulatory authority, it is true that 
if the endangerment finding is finalized, EPA would have 
authority to regulate greenhouse gas emissions. What I have 
said in that regard is that we would be judicious, we would be 
deliberative, we would follow science, and we would follow the 
law.
    I would call your attention to our greenhouse gas registry 
rule, where we particularly did not look for small businesses 
to register or have to report emissions. If you want an 
indication of where we know the significant sources of 
greenhouse gases are, they are in transportation and the 
utilities sector.
    Senator Barrasso. One last quick question, Madam Chairman, 
if I could.
    Could you please explain then by what authority can the EPA 
decide to not include all of these other emitters of carbon 
dioxide who do reach the emission thresholds set out in the 
Clean Air Act? I mean, how can anyone in your Administration 
decide where to draw that line? The law, as you just said, is 
clear. So how do you not go after everyone or expose yourself 
to lawsuits for all of those others?
    Ms. Jackson. Senator, thanks. I know this has been an issue 
that we have gone back and forth on. It is one I look forward 
to having continued dialog on.
    If it comes to that point where we are into a regulatory 
mode on greenhouse gas emissions, I will say only the following 
two things. I am not prepared here to outline the legal 
strategies. Certainly it would be one of the things we would 
propose as part of a regulatory agenda.
    The second thing I would say is to remind you that we, 
under the Clean Air Act, have the potential to regulate all 
those sources you talk about now for other contaminants, 
schools, hospitals, farms and Dunkin Donuts. We do not, because 
we make regulations smartly to address the threats in the best 
way possible and with an eye toward understanding that we do 
not want to unduly affect those who can least afford to pay. 
So, I do believe that the regulatory process allows us the 
opportunity to make those decisions and to do it but we are not 
at that point yet.
    Senator Barrasso. Thank you, Ms. Jackson. Thank you, Madam 
Chairman.
    Senator Boxer. Thank you, Senator. Senator, I just want to 
point out to you that they are under court-ordered act and this 
is a Nation of laws and the endangerment finding that was made 
is strikingly similar to that was made by the Bush 
administration because the science is so obvious and the attack 
on the EPA is, I think, just not necessary right now. They are 
just saying that they have the ability to act. We have the 
ability to act in a cap-and-trade system which will give us the 
revenues to keep small businesses whole, to keep consumers 
whole. So you are fighting against something that is not there. 
But, in any case, we will get on with this.
    I just wanted to say for the record that Senator Lautenberg 
and I asked the GAO to investigate EPA's management of the 
Superfund Program and the pace of the cleanups. We expect the 
results later this year. We will make them public and, at that 
point, we will see what an objective source says about the pace 
of the cleanups. This is going to be an ongoing issue for us.
    Senator Lautenberg.
    Senator Lautenberg. Thanks, Madam Chairman. We continue 
with this ping-pong game with one side saying listen, we have 
got to protect the health and well-being of our families. We 
have enormous costs for doing that because, under the previous 
Administration, health programs were starved but the budget 
deficit grew fat, lazy and indifferent. Now we have to dig our 
way out of the hole that was created by that.
    Those who have a budgetary concern should express that. But 
I would ask a question of those who called upon the Federal 
Government, and again I use the case of Katrina, come in, bring 
us money, we do not give a darn where you get that money, you 
have got to save our communities. They did not say, but wait a 
second, look at what we are going to do to the budget if we do 
that. It was just get us into the condition that we ought to be 
in.
    There are several questions, Madam Chairman, that I intend 
to submit to Ms. Jackson. But I will tell you something. I get 
compliments regularly for the work that I do to protect the 
environment and the health of children. It is a major focus of 
mine.
    When we look at what was done in these past years, and we 
use corporate responsibility then as it existed by looking at 
ExxonMobil who, 15 years ago roughly, had the spill up in 
Alaska, and paid fines. They were fined additionally $5 billion 
and rather than pay the fine, which would be, to use the 
expression, a spit in the ocean compared to $10 billion worth 
of earnings and profit, and they employed lawyers year after 
year after year and finally they have got that fine now reduced 
to a half a billion dollars. So, it shows what the enemies of 
good thought in terms of health and well-being of our children 
look like.
    We cannot be dissuaded from our mission that is to protect 
the well-being of our families. When I looked at these things, 
Ms. Jackson, the budget proposed a significant funding increase 
for programs to help keep the public safe from dangerous 
chemicals. I applaud the increase. But I am concerned that the 
EPA may not have the legal authority necessary to fully address 
the risks posed by industrial chemicals. Do you believe that 
the Toxic Substances Control Act needs to be reformed?
    Ms. Jackson. Senator, I do agree that at this time there is 
a need to look at our authorities and to seriously consider 
revising and updating that law.
    Senator Lautenberg. So we have things that we have to do to 
catch up with our allowable activities. According to several 
studies, enforcement of environmental laws by EPA fell 
significantly over the last 8 years. There is additional 
funding provided in the budget. Will that be able to increase 
the enforcement and to be able to challenge the polluters that 
there are consequences for their actions?
    Ms. Jackson. Yes, Senator, I am glad to know that there is 
an increase that allows us to add about 30 FTEs to our 
enforcement program. There is $600 million available in the 
enforcement budget. You know I am a long-time believer in the 
importance of enforcement. It levels the playing field for 
companies across our Country and it acts as a deterrent for 
future bad behavior. I think that those are important roles 
that EPA has to play.
    Senator Lautenberg. Thank you. Thank you, Madam Chairman.
    Senator Boxer. Thank you so much. Senator Vitter.
    Senator Vitter. Thank you, Madam Chair.
    Madam Administrator, in light of the Appeals Court decision 
involving the New Source Review regulations, will you recommend 
that the Agency permanently return to the old rules from prior 
decades or will you support a new attempt at reforming those 
rules?
    Ms. Jackson. Thank you, Senator. We are in the process of 
reviewing many NSR rule changes that came about. We have 
already indicated our agreement to re-look at the aggregation 
rule and I believe that we have indicated that we intend to 
look at other rules and their practices as well.
    Senator Vitter. What would you say is a general timeframe 
for that?
    Ms. Jackson. I could not give you a deadline, sir, but I 
would say that review is ongoing and we are aware of the fact 
that there is a need for some regulatory certainty and so I 
would hope that we would look to complete that review in 
months, not years.
    Senator Vitter. OK. Are there any areas of that New Source 
Review landscape where you are definitely not going to explore 
that but just revert, essentially permanently, to the old 
rules?
    Ms. Jackson. I am sure there are, Senator, but I could not 
enumerate them. What we have said is that we are going to look 
at the rules as a whole. There were several rule changes made, 
especially toward the end of the last Administration, that we 
were bound to reconsider. The NSR enforcement program in my 
mind remains an important one. It is based on a simple idea and 
one that has become complex, I think, the rulemaking. So I do 
believe there may be a need for changes. I am also sure that 
there are some aspects that will not change.
    Senator Vitter. OK. Second topic. Do you think Federal 
jurisdiction under the Clean Water Act should extend beyond 
navigable waters and, if so, how or to what extent?
    Ms. Jackson. I have been on record, Senator, as saying that 
I believe we are in such a murky, forgive the bad pun, area 
with respect to Clean Water Act jurisdiction that the best and 
easiest thing to do would be to have Congress clarify that 
jurisdiction. Through Supreme Court determinations, we find 
ourselves spending a majority of our resources looking at 
whether we have jurisdiction over a water body or a wetland 
rather than on the permitting or enforcement in those water 
bodies or wetlands. I am well aware, that----
    Senator Vitter. One way to do that is with the term 
navigable which is, and can be, clearly defined. Is that where 
you would draw the line or where would you draw the line and 
how would you define that jurisdiction?
    Ms. Jackson. I have no final position on that issue. I am 
well aware that is something that is being discussed in this 
Committee and elsewhere and I would look forward to having 
those discussions.
    Senator Vitter. OK. I think we all agree on the need for 
certainty and predictability and the benefit of that. I would 
just suggest the law uses a word that is certain and can be 
predictable, at least if we clear up court cases with reference 
to it, and that is navigable waters. So, getting clarity is one 
thing. Significantly expanding jurisdiction is something 
different. I look forward to continuing that discussion.
    I applaud you and the Administration for setting out as a 
stated goal transparency in all sorts of ways. There are a few 
things the EPA has been doing in the last few years that I 
think were positive in that regard. One was holding regular 
management conversations between senior leaders and staff that 
were often broadcast on desktop computers for the whole Agency. 
Another was a report on the website regarding specific goals 
and action items and accomplishments or lack thereof under 
those goals. Do you plan on continuing those specific things? 
Or what specific things with regard to the goal of transparency 
would you set out?
    Ms. Jackson. I think those are both good management 
practice, Senator, and as soon as we have more time you will 
see us continuing those and expanding. We have already put out 
what is commonly referred to as our version of the Fishbowl 
Memo which is considered the gold standard based on 
Administrator Ruckelhaus' idea that EPA should operate in a 
fishbowl. We have endorsed that idea. My schedule is now up on 
the Internet so that people can see where I am and who I am 
meeting with. I have encouraged and actually insisted that my 
senior staff do the same. I like your ideas and I think that I 
would happily embrace them and others.
    Senator Vitter. Great. Well, I point out those two specific 
ideas and ask if you can follow up with us on that. Also, with 
regard to your schedule, sometimes there are items like staff 
briefing with no subject matter or meeting with Administration 
officials with no topic or list of participants and I suggest 
that does not particularly say anything. So, if you all could 
put a level of detail there that says something meaningful, I 
think that would round out that initiative.
    Finally, I just ask unanimous consent to submit Senator 
Inhofe's opening statement for the record.
    Senator Boxer. Without objection.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                       from the State of Oklahoma

    Madam Chairman, I look forward to today's hearing and the 
chance to discuss EPA's priorities for the coming year.
    Before I begin, though, I want to discuss Administrator 
Jackson's recent efforts to promote openness and transparency 
at EPA. I applaud Administrator Jackson for establishing clear, 
precise guidelines on transparency. According to the 
Administrator's April 23rd memo, the Agency will ``reach out as 
broadly as possible for the views of interested parties'' when 
developing regulations. I trust the Administrator and her staff 
will honor this principle, especially as the agency considers 
regulating greenhouse gases under the Clean Air Act. We don't 
agree on this issue--I am strongly opposed to carbon regulation 
under the Clean Air Act and I will try to stop it--but at least 
we can agree that EPA should remain open to a wide variety of 
viewpoints.
    Also, I was pleased that Administrator Jackson recognized 
the importance of congressional oversight. Already I have 
submitted requests for information on many issues, and I will 
continue to seek information on issues before the Agency. Thus 
far, from my standpoint, the record of the Agency has been 
mixed. I hope that with future requests, on a more consistent 
basis, I can receive answers to questions in a timely and 
substantive manner. I look forward to working with the 
Administrator and her staff on this.
    Now, on to the budget. Permit me to put this year's EPA 
budget request in context.
    Since January 20, the day President Obama took office, over 
2 million Americans have lost their jobs and 1 million families 
have lost their homes to foreclosure.
    From January to March of this year, the Nation's Gross 
Domestic Product dropped by a larger than expected 6.1 percent.
    And yet, since January 20, we have spent $787 billion in an 
economic stimulus package and increased the public debt by $558 
billion.
    Now, in spite of these massive spending increases and 
economic problems, the President proposes what I can only call 
a stunning increase in Federal spending: a total of $3.4 
trillion. This is more than the Nation has ever spent under any 
other President. It will also create a $1.8 trillion Federal 
deficit--the highest ever.
    The President also proposes some budget cuts, to the tune 
of $17 billion. Half of those will come from defense spending. 
So, according to the President's budget, and during a time of 
war no less, we are being asked to cut a number of next-
generation weapons systems for our war fighters. Yet there 
seems to be enough money to increase EPA's budget by a 
staggering 37 percent.
    Now don't get me wrong: there are legitimate areas of EPA's 
budget that deserve funding increases. The Clean Water State 
Revolving Loan Funds are a good example. But we must remember 
the proper balance between environmental protection and 
economic growth. We will not end this recession, or attain a 
cleaner, healthier environment, by enlarging EPA's bureaucracy 
with taxpayer dollars.
    The President made a point of saying recently that he wants 
his Cabinet to identify $100 million in cuts out of his multi-
trillion dollar budget. I think he can find that extra $100 
million in EPA's bloated budget request alone.
    The President's EPA budget in many respects fuels a growing 
bureaucracy and encourages more misguided regulation, both of 
which threaten jobs, our energy security, and our economic 
competitiveness, not to mention our citizens' freedoms.
    Thank you, Madam Chairman.

    Senator Boxer. If I might say, Senator Vitter, the Clean 
Water Restoration Act that you asked about, the Rapanos 
decision, Senator Feingold has written a bill. I am a co-
sponsor of it. A couple of members on my side would like to 
amend that and I know some members on your side would as well. 
We are working hard with Senator Feingold and CEQ to see what 
we can come up with.
    So I want to assure you that we are going to have a bill up 
for markup in the near future on that because I think everyone 
agrees we need clarification. Your idea of how to clarify and 
mine will no doubt be different but we will debate that at the 
time. But that will be coming in the next several weeks.
    I believe Senator Whitehouse is next.
    Senator Whitehouse. Thank you, Madam Chair.
    One point and one question. The point follows up a little 
bit on my opening statement.
    For as long as there has been pollution, there has been a 
constant battle with polluters who do not want to pay the costs 
of their pollution, either preventing it or cleaning it up. 
They would like to just dump it and have it been somebody 
else's problem. There is absolutely nothing new about that. 
Polluters do not want to pay. What is new is our understanding 
of what the costs are of carbon pollution: economic costs, 
environmental costs, wildlife and habitat costs, and, as we 
have discovered, very significant national security costs.
    In the context of that battle, of the polluters not wanting 
to pay, I would like to ask for unanimous consent to add to the 
record of this hearing an article entitled Lobbying: Energy 
Companies' Utilities Spent Nearly $80 Million in First Quarter. 
Some of the highlights of this are that all environmental 
groups combined in the first quarter spent a grand total of 
$4.7 million on lobbying. The Nature Conservancy was the top 
environmental group and it spent $850,000 thus far.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Whitehouse. By comparison, ExxonMobil Corporation 
alone in the first quarter has spent more than $9.3 million, 
Chevron Corporation $6.8 million, Conoco-Phillips $6 million, 
BP $3.6 million, Marathon Oil $3.4 million. Just from big oil, 
I add that up to a total of $29.1 million. The total of all oil 
and gas companies is roughly $44.6 million just in this first 
quarter.
    So, if we wonder why the Senate is the last place in 
America that still does not get it, that climate change is a 
real problem for our people and that carbon pollution is 
something that people should pay for when the emit it, big 
utilities, big industry, gee, connect the dots.
    The question that I have has to do with the Clean Water 
Restoration Act. I have heard, over and over again, about the 
farmer with the pond who is going to water his cattle in the 
pond and now there is going to be an EPA agent staked out by 
the pond so that before any cow walks into the pond and muddies 
those waters they will need a permit. It seems a little 
improbable. It is sort of one of those urban myths that has 
developed. Can you tell us a little bit about what your 
strategy will be for farms that have ponds for watering cattle 
and horses and livestock?
    Ms. Jackson. Thanks, Senator. The sponsors, Congressman 
Oberstar and Senator Feingold, have already had lots of dialog 
with the Farm Bureau and with the farming community members to 
assure them that their goal in trying to clarify jurisdiction 
is not to snare agriculture and farmers in a whole new set of 
regulations but to use common sense.
    It is not our intention to worry about the whereabouts of 
every single cow. There is lots of precedent that exempts farm 
operations and, in fact, the plain language already developed 
would make it clear that this imposes no new requirements on 
farm operations. There are certainly requirements now on farm 
operations, on agribusiness, as you know. So that is not an 
issue. It has been used, in my mind, as a distraction to lobby 
against the very real need for clarification of jurisdiction.
    Senator Whitehouse. The family farmer with the cattle pond 
can rest assured.
    Ms. Jackson. Yes, please, help me assure them.
    Senator Whitehouse. Thank you.
    Senator Boxer. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Administrator Jackson, I would like to draw your attention 
to a very important EPA project that affects New Mexico, 
Arizona and the Navajo Nation. The EPA sponsored a cleanup of 
contaminated sites in the Navajo Nation due to uranium mining. 
This is a multi-region project with significant EPA funding so 
it is important for us that EPA headquarters is supportive. EPA 
is responsible for cleaning contaminated homes, water sources, 
abandoned mines on the Navajo Nation.
    It is absolutely critical that EPA see this site through 
because recently there has been discussion about starting 
uranium mining, restarting uranium mining, in the West. It 
would be tragic, I think, to start creating new environmental 
issues on the Navajo Nation in the 21st century before we 
uphold our commitments to clean up the legacy from the 20th 
century. Will you commit to continuing the EPA cleanup of 
uranium sites on the Navajo Nation until the job is complete?
    Ms. Jackson. Yes, Senator, we will stay the course and 
finish the job. As you know, there is an additional $7.8 
million for the Superfund Removal Program to clean up high 
priority abandoned uranium mines, waste piles and home sites 
and to sample irrigation and livestock wells on the Navajo 
Nation.
    EPA has already assessed more than 100 structures. We will 
work with the Navajo Nation to screen an additional 100 mines. 
We have already assessed 200 wells.
    Senator Udall. Thank you. The budget that you have 
presented has significant increases for the Clean Water State 
Revolving Fund and also the Safe Drinking Water State Revolving 
Fund. But if you go out into the future and you look at the 
needs, you know, your Agency has done an assessment of the 
overall needs, and the needs, the long-term needs assessment is 
a lot higher than the money that we are putting toward this. I 
applaud the Administration and you for increasing those 
budgets, but what do you think the strategy should be down the 
road to deal with those huge needs that do not appear to be met 
on a yearly basis of the budgets we have right now?
    Ms. Jackson. Well, I think that we have sort of a two-
pronged strategy at EPA. The first is to show and to 
demonstrate that the Recovery Act money, that $6 billion 
amount, plus now this amount of money in the President's 
budget, that we can spend it wisely, that we can help to move 
communities across the country, and rural communities 
particularly who have affordability problems with trying to 
fund this work on their own, with getting this money.
    I do think we need to look, going forward, at the size of 
the need, and recognize that oftentimes it is rural communities 
that cannot come up with the ability to make a loan so they 
need additional help from the Federal Government. It is 
something that came up in my confirmation hearing. I think it 
is an unanswered question, one I would like to work on with you 
and other members of this Committee.
    Senator Udall. Thank you. I very much appreciate your 
looking out for those small rural communities because they 
really do have a hard time, whether it comes to water quality 
of wastewater infrastructure. I mean, they are the ones that 
are really struggling.
    Thank you, Madam Chair.
    Senator Boxer. Thank you. Senator Klobuchar.
    Senator Klobuchar. I am back. Administrator Jackson, it is 
good to see you.
    The 2007 Energy Independence and Security Act mandates the 
production of $36 billion of biofuels by 2022. Last year, 
ethanol was used to displace over 9 billion gallons of gasoline 
in our Nation's transportation system. So cellulosic ethanol, 
as we have discussed before, could raise per-acre ethanol 
yields to more than 1,000 gallons, significantly reducing the 
land requirements.
    I see cellulosic as the future of biofuels. But we still 
have to move from small scale to large scale production. Ms. 
Jackson, how important of a role do you see for biofuels in the 
overall effort to reduce global warming emissions from gasoline 
and other fossil-based transportation fuels?
    Ms. Jackson. Biofuels play an important and critical role, 
Senator. They have the potential, as long as we follow the 
science and do it right, to literally have the impact of 
removing millions of cars off of our highways, of addressing 
not only global warming pollution but other pollutants as well.
    As the President has said, those private investors and 
entrepreneurs who took the risk of investing in ethanol when 
the country asked them to, should be there and their 
infrastructure needs to remain so that it is there to support 
the next generation biofuels. Most of that infrastructure can 
be retrofitted with support. EPA's role in that process is to 
speak honestly and in a science-based way to make sure we are 
moving to the right fuels and, at the same time, protecting, if 
you will, the current infrastructure.
    Senator Klobuchar. Thank you very much. As you know, the 
EPA allows ethanol blends in gasoline of up to 10 percent by 
volume. Under the current renewable fuel standard, we are 
likely to hit the so-called blend wall in the near future. The 
blend wall, as you know, is the maximum possible volume of 
ethanol that can be blended into motor gasoline at a 10 percent 
concentration. The EPA and the Department of Energy are 
currently conducting tests on E15 and E20, allowing up to 15 
percent and 20 percent ethanol in a gallon of gas by volume. 
Results will be published by the end of the year.
    Meanwhile, a group of those pushing for increased biofuels 
filed a petition with the EPA in March 2009 requesting an 
increase in the ethanol blend from 10 to 15 percent. This 
process is likely to take as long as 270 days to move through 
the regulatory process. Would you consider recommending a 
short-term increase in the level of ethanol blends to say E11 
or E12 to help prevent this technology from hitting a ceiling 
before a decision is made on E15?
    Ms. Jackson. Senator, the EPA is currently in the middle of 
a request for information and comment on the growth energy 
petition for an increase in the blend up to 15 percent. Ethanol 
in gasoline, we are eagerly looking forward to data that comes 
in domestically and from abroad on whether those materials up 
to 15 percent can be blended, whether ethanol can be blended at 
some level above its current 10 percent. It would be wrong of 
me to prejudge that process. The most important thing is to 
follow the data.
    I also want to call your attention to the President's 
recent development of a biofuels task force. It includes 
Secretary Vilsack, Secretary Chu, myself and the President's 
applied recognition that there are more issues than what the 
actual blend number is. There are distribution issues, there 
are warranty issues, and there are consumer education issues 
that all need to be addressed in order to make sure that this 
fuel that we are producing has an outlet.
    Senator Klobuchar. I appreciate that because you can have a 
fuel but then if you do not have the vehicles that are 
compatible with that fuel there is an issue. Then if you do not 
have the pumps, that is another one.
    Senator Boxer, do you mind if I do one other?
    Senator Boxer. No, go ahead.
    Senator Klobuchar. Administrator Jackson, last week your 
Agency released a proposed rule for implementing the renewable 
fuel standard as part of the Energy Independence and Security 
Act of 2007. The rule deals with all aspects of RFS 
implementation including greenhouse gas emissions for all fuels 
covered by the RFS.
    One area of particular concern in my State is the issue of 
life cycle greenhouse gas emissions. I understand the EPA is 
looking at both direct greenhouse gas emissions and indirect 
emissions from land use changes. It is a proposal to measure 
indirect emissions that is causing concern.
    I know you believe in basing things on science. We are 
concerned that this is speculative to look at this and would be 
very difficult to do on an evidence based method. I would just 
like you to look carefully at this analysis and that you will 
not include indirect land use calculations if the analysis 
shows that such a calculation is speculative and is not 
evidence based.
    Ms. Jackson. Absolutely, Senator. In fact in releasing the 
rule for comment, we also initiated a peer review science 
process of specifically those issues regarding indirect land 
use and international impacts. I look forward to results of 
that review as well as the public comment period.
    Senator Klobuchar. All right. I am sure we will be talking 
more about this in the future.
    Ms. Jackson. No doubt.
    Senator Klobuchar. Thank you.
    Senator Boxer. Thank you very much.
    Administrator, I have three brief questions but they are 
important. Then I am going to ask Senator Merkley, would you 
come and sit up here because I am going to have you complete 
the hearing.
    What is your timeframe, Administrator? Did you need to 
leave? Because I know you are under pressure.
    Ms. Jackson. I never know where I am supposed to be. What 
time do we have to get out of here? I think I have to be in 
Mount Vernon at noon time.
    Senator Boxer. So that means you need to get out now.
    Ms. Jackson. Well, we will work with you, Madam Chair, 
whatever you decide.
    Senator Boxer. Let me just ask these three questions and 
then Senator Merkley will close it. I also have other questions 
for the record. Administrator Jackson, I will ask you all three 
so just take some copious notes on this.
    Chromium 6 is a heavy metal that has contaminated drinking 
water supplies in California. Erin Brockovich fought for people 
who drank water contaminated with Chromium 6. A 2008 study 
shows that Chromium 6 can cause cancer when ingested. In 2002, 
EPA had delayed deciding whether to toughen chromium's drinking 
water standard. Could you tell me the status of EPA's effort to 
revise the drinking water status for chromium?
    My second question is toxic air in schools. You are my 
heroine because you made a promise that you are going to begin 
to collect monitoring data. I wanted to ask you, what do you 
anticipate accomplishing in the monitoring program during 2010? 
What is your goal?
    On coal ash, at your confirmation we discussed the need for 
EPA to address the threat posed by coal combustion waste 
disposal practices. The TVA's devastating coal ash spill is one 
of the biggest examples of the risk posed by this coal waste. 
EPA recently announced it was reviewing the safety of ash 
impoundments and considering regulating ash disposal. Can you 
tell me the status of EPA's efforts on regulating coal ash 
disposal, determining the safety of coal waste impoundments, 
and cleaning up the TVA's coal ash spill?
    Ms. Jackson. Madam Chair, I will start with the last first 
but I do have notes on all.
    On coal ash, I have promised proposed regulations by the 
end of the calendar year and we are on track to meet that goal. 
In fact, our announcement just yesterday that we were inserting 
ourselves into the TVA cleanup I think will give us important 
information that can be used in that rulemaking for coal ash 
impoundments across the country.
    We also, as you know, have sent out a request for 
information to utilities to find where, as you had put it 
earlier, the ticking time bombs might be. We found some. Not 
only that, but we identified some additional ones that the 
utilities identified, so we are still gathering information 
there.
    Senator Boxer. When will you announce the results of your 
investigation?
    Ms. Jackson. I do not have a date but I will get that back 
to you, Madam Chair.
    Senator Boxer. But you are saying by the end of the year 
you will have recommendations?
    Ms. Jackson. No, we will have a regulatory proposal.
    Senator Boxer. You will? So I am assuming that by the end 
of the year you will also have made the assessment of what a 
big problem this might be.
    Ms. Jackson. Certainly. Hopefully before that.
    Senator Boxer. Very good. Just so you know, the Committee 
is doing its own investigation on this matter. We will let you 
know of our discoveries as well.
    Ms. Jackson. Yes, that would be very helpful. Obviously, we 
would love to share information there.
    On the schools monitoring initiative, you know that we are 
already monitoring at 62 schools in 22 States. We are 
requesting $3.3 million and 5 FTE in this fiscal year 2010 
budget. There is about a 60-day window so we are actually 
getting to the end where we will start to get some results. We 
promise as quick a turnaround as we can and I am happy to share 
those results with the Committee as we get them. Obviously, 
also most important, is to share them with the parents and the 
school administrators who are eagerly waiting.
    Senator Boxer. Please. I think it is really important. I 
would not wait for an artificial date. Administrator, if I can 
say this: if it was the FDA, if you were the FDA, and you found 
out that there was a prescription drug out there that was 
harming people, you would not wait until you figured it all, 
you know, finish the whole study. You immediately, ethically, 
have to say, if you find that there is a school that is 
dangerous and you know it now, please, I think that it is key 
to take action. Can I count on you to do that?
    Ms. Jackson. Absolutely.
    Senator Boxer. Excellent. Chromium 6?
    Ms. Jackson. Chromium 6, EPA is still reviewing its data. 
It is coordinating with California EPA, with my former home at 
the New Jersey DEP and with DCD and HCSDR. I do not have a date 
for you, Madam Chair, but I will push to get one to your staff.
    Senator Boxer. Please do. We will send the rest of our 
questions in.
    Senator Merkley, I am going to ask you to chair the rest of 
the hearing and if anybody comes in, call on them. Otherwise, 
you can close it down when you are done without a time limit.
    Senator Merkley [presiding]. Thank you very much, Madam 
Chair. I am pleased to do so. I thank you very much for joining 
us today and for doing so much in a very short period of time 
to take on such important environmental issues.
    I wanted to simply ask, in the context of questions that 
have preceded me today, how important is it that we, as a 
Nation, really dive in and tackle carbon dioxide and other 
global warming gases?
    Ms. Jackson. Well, as the endangerment finding proposal 
says, CO<INF>2</INF> and the other five gases we evaluated pose 
a threat to this generation and to future generations. There is 
an urgent need to get into this game in a big way as a country, 
to address it and to do it a way that is also mindful of our 
economy, our current economic situation, but also for selfish 
reasons. The race for clean energy is on. If we do not jump in 
in a big way, and climate change is certainly part of the 
equation, we are going to be passed by by others in the world 
that are jumping on before us.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Merkley. Some have said that given the Nation's 
economy right now, that we should delay our work. But it sounds 
to me like you are saying we will miss a critical opportunity 
to strengthen our economy.
    Ms. Jackson. Absolutely. The race to the clean energy 
future is on. I have heard Secretary Chu at the Department of 
Energy liken it to the Internet boom of the last decade. If we 
are not in it in a big way, and we are not bringing American 
innovation and willingness to roll up our sleeves and get it 
done to bear, I worry that we are going to miss a tremendous 
opportunity.
    Senator Merkley. I want to try to understand the most cost 
effective way, because we want to get as much done as possible 
at the least cost and strengthen our economy. Is it more 
effective for us to simply pass rules that restrain every 
single source of carbon dioxide of at least all of the major 
sources of carbon dioxide? Or is more cost effective to allow 
one producer to say, hey, it costs me, if you will, $1 million 
to reduce quantity x but someone else a quarter of a million 
dollars and we should work to create a market so that we can 
get more done for less?
    Ms. Jackson. A market-based mechanism is more effective. It 
is not only more economically effective, it can be more 
environmentally effective because it quickly puts a price on 
carbon that business can assess and make a determination of how 
best to adjust.
    Senator Merkley. Thank you. I want to turn to, and I 
appreciate your bringing that to our attention, I believe that 
the market-based approach is not a completely new invention. We 
have used it with some effectiveness on sulfur dioxide and acid 
rain. Do we have some experience with that?
    Ms. Jackson. That is right. EPA certainly has quite a bit 
of national experience in its SO<INF>2</INF> program, its acid 
rain program. That program was found to be a very cost 
effective way, much cheaper than estimates and much cheaper 
than industry forecasts, by the way, of reducing SO<INF>2</INF> 
pollution and having a dramatic impact on acid rain and on the 
health of our forests in the Central and Eastern part of the 
United States.
    Senator Merkley. I do recognize that carbon dioxide and 
methane gas is a more complicated picture than sulfur dioxide 
but despite that greater complexity this tool would be suitable 
for use?
    Ms. Jackson. Yes, absolutely, Senator.
    Senator Merkley. Thank you.
    One important issue to Oregon, as it is to many States, is 
the Superfund Program and the program has a modest increase in 
your budget. The Portland Harbor is one example of a major, 
major Superfund cleanup. There have been times when folks 
working on that project in Oregon have been somewhat 
frustrated.
    For example, one company received an 82 question 
information request asking it to identify potentially 
responsible parties with questions going back to 1937. The 
company has spent $100,000 responding and expects their final 
response to total more than 1 million pages. This is a company 
that has already identified itself as being involved in a 
positive way with the cleanup.
    Are there ways that we can reduce the paperwork and 
increase the action on the Superfund site itself?
    Ms. Jackson. Certainly. I do believe that there are 
opportunities for us always to make sure that we are moving as 
quickly on the cleanup front as we are on the enforcement 
front. I am happy to look into that particular matter for you, 
Senator. It sounds a bit as though we are trying to find 
additional people to help pay for the cleanup, which is a good 
thing, but we need to balance that against actually getting the 
cleanup done. So I am happy to look into that for you.
    Senator Merkley. Thank you very much. There are some recent 
Supreme Court decisions that have affected the scope of the 
Clean Water Act's jurisdiction, making the jurisdiction a 
little bit murky. That would affect a number of important 
rivers and streams in Oregon with the potential loss of Clean 
Water Act protections. Is this situation one which your Agency 
is familiar with and is working on? Is there a way to dive in 
in terms of implementation activities, enforcement activities, 
how will the work of your Agency be affected?
    Ms. Jackson. The current situation has us spending more of 
our time trying to determine whether we have jurisdiction than 
we do working on actual permits or enforcement cases. So the 
administrative burden is quite high. I have said before, and I 
said before you joined us, that I believe that the most 
efficient solution would be a legislative one, a statutory one, 
since we have landed where we are through a series of two 
Supreme Court decisions which were, in and of themselves, 
somewhat murky because they split decisions. So we are 
operating on fairly shaky ground. It would be very helpful to 
have legislative clarification on jurisdictional issues.
    [The referenced information follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Merkley. Well, thank you very much. It is a 
pleasure to have you, Administrator Jackson, and the work you 
are doing and I certainly look forward to working with you and 
all the work that you are doing on green energy and the 
economy.
    I do ask for the unanimous consent of the Committee to 
enter into the record the document that Senator Whitehouse 
discussed earlier in the hearing. Hearing no objections, so 
ordered.
    Senator Vitter. Thank you all very much and we will bring 
this Committee hearing to a close.
    [Whereupon, at 11:15 a.m., the Committee was adjourned.]

                                 [all]
</pre></body></html>
